January 13, 2011

TIMOTHY C. HANEY
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT:          Final Audit Report – Postal Vehicle Service Transportation
                  Routes – Suburban Maryland Processing and Distribution Center
                  (Report Number NL-AR-11-001)

This report presents the results of our audit of the Suburban Maryland Processing and
Distribution Center’s (P&DC) postal vehicle service (PVS) transportation routes (Project
Number 10XG013NL002). Our objectives were to determine whether selected PVS
vehicle operations were effective and economical. The report is the 12th in a series of
reports responding to a request from a former U.S. Postal Service vice president,
Network Operations, for audit work in this area. See Appendix A for additional
information about this audit.

Postal Service transportation includes both nationwide network transportation between
cities and major facilities as well as delivery transportation between local post offices
and neighborhood delivery and pickup points. Network transportation using Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as network distribution
centers or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations. PVS
drivers travel about 150 million miles every year. Because PVS operations are local,
they are managed at the facility level under guidance from district, area, and
headquarters transportation officials.

Conclusion

The Suburban Maryland P&DC could more effectively manage PVS transportation
processes and schedules, thereby reducing driver workhours as well as associated fuel
use and damage claims. Additionally, management could eliminate or consolidate
underutilized trips from highway contract routes (HCRs)1 that serve the Suburban
Maryland P&DC. Once this occurs, we estimate the Postal Service could save about
$6.5 million over 10 years, or about $650,000 per year. The reduction in PVS and HCR
transportation fuel use would also help the Postal Service achieve its fuel consumption
goals. Finally, we observed that PVS drivers were not consistently restraining mail and
equipment for transportation as required.


1
  Although our audit focus was on PVS transportation, we also reviewed HCR transportation as part of overall facility
transportation needs. We identified HCR routes that were underutilized and included the results in this report.


         .
Postal Vehicle Service Transportation Routes –                                       NL-AR-11-001
 Suburban Maryland Processing and Distribution Center


Excess Workhours and Associated Cost Reductions

Suburban Maryland P&DC officials were not effectively managing PVS transportation
processes and schedules as evidenced by unassigned driver time and underutilized
trips. This occurred because management did not always conduct required schedule
and vehicle utilization reviews. We concluded that management could remove 14,177
excess workhours from existing PVS schedules and reduce related fuel costs and
damage claims, thereby saving the Postal Service about $650,000 per year.2 See
Appendix B for our detailed analysis of this topic.

We recommend the vice president, Capital Metro Area Operations:

1. Ensure that Suburban Maryland Processing and Distribution Center managers follow
   prescribed fleet management procedures for making postal vehicle service
   schedules effective, including conducting schedule and vehicle utilization reviews.

2. Verify elimination of the 14,177 workhours identified in our audit, and already agreed
   to by management, from the postal vehicle service trip schedules.

Management’s Comments

Management agreed with the recommendations. Management reissued instructions to
local managers to follow the Postal Service’s prescribed fleet management procedures,
and the manager of Transportation/Networks agreed to perform annual reviews of all
PVS operations and utilization, starting June 1, 2011. Management agreed with
elimination of underutilized PVS trips and will incorporate the trip reductions with PVS
schedule changes underway due to Flats Sequencing System deployment. It is
anticipated the new runs reflecting these changes will be awarded by January 29, 2011.
See Appendix D for management’s comments.

Other Matters – Cost Reductions for HCRs

The Suburban Maryland P&DC could eliminate or consolidate underutilized trips and
save more than $564,000 over the term of existing contracts. See Appendix B for our
detailed analysis of this topic.

We recommend the vice president, Capital Metro Area Operations:

3. Verify the elimination of two trips initiated by management identified during our audit
   fieldwork.

4. Eliminate from highway contracts 11 trips identified in our audit and already agreed
   to by local and area management.



2
    Funds that could be used more efficiently by implementing recommended actions.


                                                          2
Postal Vehicle Service Transportation Routes –                                                                NL-AR-11-001
 Suburban Maryland Processing and Distribution Center


Management’s Comments

Management agreed with our findings and recommendations. Management has already
initiated service change requests to Headquarters Contracts group to eliminate the 13
HCR trips identified in the audit. They anticipate finalized contracts to be completed by
February 5, 2011.

Other Matters – Safety Concerns

We observed mail and equipment being transported on Suburban Maryland P&DC PVS
transportation that was not consistently restrained according to established safety
policies.3 Improperly restrained mail and equipment can lead to accidents, property
damage, undue liability, and unwarranted costs for the Postal Service. This occurred
because local officials were not consistently enforcing the safety policy. See Appendix B
for our detailed analysis of this topic.

We recommend the vice president, Capital Metro Area Operations:

5. Ensure that Suburban Maryland Processing and Distribution Center management
   issues guidance to drivers enforcing load restraint policies for Postal Vehicle Service
   trips and provide oversight of load restraint processes.

Management’s Comments

Management indicated agreement with our finding and recommendation. Management
has reissued instructions regarding the proper use of load restraints to the Suburban
P&DC PVS drivers in the form of a safety talk. Transportation staff has been advised to
include observations of load restraint policy adherence to their field reviews.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive and management’s corrective actions should resolve the issues
identified in the report.

The OIG considers recommendations 1, 2, 3 and 4 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




3
  Logistics Order LO200407, dated April 16, 2004, prescribed policies for safe loading and proper restraint during
transportation of mail to facilities. In particular, the order states, “All vehicles transporting containers and pallets must
have the load secured with two restaining devices approximately every ten (10) feet.”


                                                              3
Postal Vehicle Service Transportation Routes –                              NL-AR-11-001
 Suburban Maryland Processing and Distribution Center



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Megan Brennan
    David E. Williams, Jr.
    Cynthia F. Mallonee
    Pamela S. Grooman
    Corporate Audit and Response Management




                                                  4
Postal Vehicle Service Transportation Routes –                                  NL-AR-11-001
 Suburban Maryland Processing and Distribution Center


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service transportation includes both nationwide network transportation between
cities and major facilities as well as delivery transportation between local post offices
and neighborhood delivery and pickup points. Network transportation using Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as network distribution
centers or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations. PVS
drivers travel about 150 million miles every year. Because PVS operations are local,
they are managed at the facility level under the guidance of district, area, and
headquarters transportation officials.

PVS is capital- and personnel-intensive. Nationwide, PVS capital assets include
approximately 2,180 cargo vans, 1,840 tractors, and 4,070 trailers. Employees service
and repair these vehicles at 312 Postal Service vehicle maintenance facilities (VMFs),
VMF auxiliaries4, and local commercial garages nationwide. PVS currently involves
about 8,900 employees, including 7,360 drivers, 598 administrative support personnel,
and 932 managers. The American Postal Workers Union represents PVS drivers and
support personnel.

PVS operations typically include:

          Transportation to and from major facilities or local post offices.

          Transportation to and from major commercial business mailers.

          Yard operations, defined as the movement of trailers and equipment in or around
           a facility yard.

OBJECTIVE, SCOPE, AND METHODOLOGY

A former vice president, Network Operations, requested that we audit PVS operations
nationwide. Because individual facilities control PVS operations, we localized our
approach and focused on PVS operations at the Suburban Maryland P&DC in the
Postal Service’s Capital Metro Area. The objective of our audit was to determine
whether PVS operations were effective and economical.

During our work, we visited the Suburban Maryland P&DC and other regional facilities.
We reviewed relevant Postal Service policies and procedures, interviewed managers
and employees, and observed and photographed operations. We evaluated the type of
mail carried and considered on-time service standards. We examined the cost of PVS


4
    Extension of a VMF.


                                                  5
Postal Vehicle Service Transportation Routes –                               NL-AR-11-001
 Suburban Maryland Processing and Distribution Center


operations, including the cost of PVS personnel, fuel, and damage claims. We identified
unscheduled time and trip duplications and analyzed potential trip consolidations.

Using Postal Service computer-generated data and other records, we analyzed 71
Suburban Maryland P&DC driver schedules, identified 119,910 annual workhours
associated with those schedules, and evaluated individual trips and trip load volume.
We conducted the analysis to determine whether management could reduce workhours
and labor costs. We analyzed driver assignments and determined whether drivers made
duplicate or unproductive trips. We also reviewed fuel reduction initiatives for Postal
Service-owned vehicles as contained in the Postal Service’s National Energy Plan and
determined whether our recommendations impacted the initiatives.

We conducted this performance audit from August 2010 through January 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on October 21, and
November 23, 2010, and included their comments where appropriate.

We did not audit or comprehensively validate the computer-generated data used in our
analyses; however, we noted several weaknesses that limited our work. For example,
some computer records had missing data and inaccurate load volumes. Although these
limitations constrained our work, we were able to compensate by applying alternate
audit procedures, including observation, physical inspection, and discussion with
appropriate officials. We also applied conservative principles to our workhour and cost-
reduction estimates.

PRIOR AUDIT COVERAGE

At the request of a former vice president, Network Operations, the OIG previously
worked with the Postal Service to reduce PVS costs. As indicated by the following table,
since March 2007 we have issued 11 audit reports that identified labor and other
potential savings of $79.3 million. Management agreed with all of our recommendations.
This report used the same methodology and had comparable findings.




                                                  6
 Postal Vehicle Service Transportation Routes –                                         NL-AR-11-001
  Suburban Maryland Processing and Distribution Center




                                                                                          Monetary
                                                                         Final Report
                   Report Title                          Report Number                     Impact
                                                                             Date
                                                                                        (In millions)
Postal Vehicle Service Transporation
Routes – Memphis Processing and                           NL-AR-07-003    3/30/2007              $7.3
Distribution Center
Postal Vehicle Service Transportation –
                                                          NL-AR-07-006    9/21/2007               4.9
Los Angeles Bulk Mail Center
Postal Vehicle Service Transportation
Routes – Milwaukee Processing and                         NL-AR-07-007    9/27/2007               4.0
Distribution Center
PVS Vehicle Service Transportation
Routes – San Francisco Processing and                     NL-AR-08-003    3/26/2008              10.1
Distribution Center
Postal Vehicle Service Transportation
Routes – Northern Virginia Processing                     NL-AR-08-006    9/25/2008               8.0
and Distribution Center
Postal Vehicle Service Transportation
Routes – Minneapolis Processing and                       NL-AR-09-001    2/13/2009               9.3
Distribution Center
Postal Vehicle Service Transportation
                                                          NL-AR-09-005    7/17/2009               4.3
Routes – Philadelphia Bulk Mail Center
Postal Vehicle Service Transportation
Routes – Philadelphia Processing and                      NL-AR-09-006    7/20/2009               5.4
Distribution Center
Postal Vehicle Service Transportation
Routes – Cardiss Collins Processing and                   NL-AR-10-002    12/28/2009             18.3
Distribution Center
Postal Vehicle Service Transportation
Routes – Southern Maryland Processing                     NL-AR-10-006    7/14/2010               4.8
and Distribution Center
Postal Vehicle Service Transportation
Routes – Washington Network                               NL-AR-10-007     8/4/2010               2.8
Distribution Center
                  Total                                                                        $79.35




 5
     Total slightly higher due to rounding difference.


                                                            7
Postal Vehicle Service Transportation Routes –                                                      NL-AR-11-001
 Suburban Maryland Processing and Distribution Center


                                APPENDIX B: DETAILED ANALYSIS

Excess Workhours and Associated Cost Reductions

Suburban Maryland P&DC officials could more effectively manage PVS transportation
processes and schedules to ensure efficiency. We found that PVS schedules included
the following:

        Unassigned time when drivers were not needed for a specific trip or related
         activity.
        Duplicate trips.
        Underutilized trips management could have consolidated.

This occurred because managers did not always conduct PVS schedule reviews as
required.6 In addition, given the dynamic and ever-changing transportation environment
and the need to maintain the effectiveness and efficiency of PVS operations, the Postal
Service requires management to perform vehicle utilization reviews at least annually to
determine vehicle need.7 According to Suburban Maryland P&DC management, they
have not performed this type of review since 2006.

We concluded the Suburban Maryland P&DC could reduce PVS workhours by 14,177
and save about $5.9 million over 10 years without negatively affecting service. The
Postal Service would achieve more than 91 percent of the savings through personnel
workhour reductions and also realize fuel cost and damage claim savings, as depicted
in Table 1.

                 Table 1. PVS Potential Savings – Funds Put to Better Use
                           (Personnel, Fuel, and Damage Claims)

                                    Fiscal Year (FY)           FY 2012         10-Year Total9
        Cost Category                 2011 Total8              (Annual)         (FYs 2011 to  Percentage
                                      (Phased In)                Total             2020)
Personnel                                   $315,472            $616,517           $5,421,409      91.7%
Fuel                                          29,984              29,760              289,967       4.9%
Damage Claims                                     21,469           21,143               200,616             3.4%
Total                                          $366,925         $667,420            $5,911,992              100%




6
  Handbook PO-701, Fleet Management, Chapter 23, March 1991, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain effectiveness and efficiency.
7
  Handbook PO-701, Chapter 23, Section 233, specifically requires annual completion of Postal Service (PS) Form
4575, Motor Vehicle Service Vehicle Survey; PS Form 4572, Tractor Log; and PS Form 4569, Vehicle Use Plan, to
maintain effectiveness and efficiency.
8
  The FY 2011 figure is conservative to allow for phase-in of workhour reductions during the year.
9
  The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted to
present value by applying factors published by Postal Service Headquarters Finance.


                                                        8
Postal Vehicle Service Transportation Routes –                                                          NL-AR-11-001
 Suburban Maryland Processing and Distribution Center


Further, the actions would help achieve fuel consumptions goals outlined in the Postal
Service’s National Energy Plan by reducing fuel use for Postal Service-owned vehicles.

Throughout our audit, we coordinated proposed schedule realignments with local
transportation managers. The managers reviewed each proposal in conjunction with
their own assessment of operational requirements and we discussed any differences.
Management agreed to all 14,177 of the workhours we identified as unnecessary.

Other Matters – Cost Reductions for HCR

We also determined the Suburban Maryland P&DC could improve the effectiveness of
scheduled HCRs and save more than $564,000 over the term of existing HCR contracts
by canceling 13 trips, as depicted in Table 2. The Postal Service could eliminate these
trips without negatively affecting on-time service because trip mail volume was low and
mail could be consolidated on other trips. This occurred because management did not
always conduct required schedule and vehicle utilization reviews. On September 15,
2010, the Capital Metro Area requested that transportation managers review HCR trips.
As a result of the review, a service change request was submitted to eliminate two trips
from HCR 208L2. We worked with management during the audit and they subsequently
agreed to eliminate the remaining 11 trips identified.


     Table 2. HCR Potential Savings for Cancelled Trips – Funds Put to Better Use
                                 (Contract and Fuel)

                                               Contract          Number of          Estimated
                                               Number              Trips            Savings10
                      Postal Initiated          208L2                    2             $78,554
                                                202U1                         1         108,578
                                                20810                         4         124,877
                      Agreed                    20830                         2          17,452
                                                208L3                         2         140,729
                                                208L2                         2          94,221
                      Total                                                  13     $564,41111

Other Matters – Safety Concerns

During our observations of PVS vehicles being loaded and unloaded at the Suburban
Maryland P&DC, we found employees were securing up to 76 percent of these vehicles’

10
   Estimated savings are based on the remaining value of existing contracts and are negotiated between the Postal
Service and their suppliers. The standard OIG methodology for calculating the months remaining in the contract is to
use actual months remaining as of a specified date. But if the months remaining are less than 1 year, the number of
months in the renewal is used.
11
   This amount will be classified as funds put to better use (funds that could be used more efficiently by eliminating
these trips) and consists of $458,801 in contract savings and $105,610 in HCR fuel savings.


                                                           9
Postal Vehicle Service Transportation Routes –                                   NL-AR-11-001
 Suburban Maryland Processing and Distribution Center


loads of rolling stock of mail and equipment with single – instead of the required double
– restraints at the ends of their loads. This occurred because local officials were not
consistently enforcing the safety policy.

Improperly restrained Postal Service mail and equipment can lead to accidents, damage
to property, undue liability, and unwarranted costs for the Postal Service.




                Single strap usage picture taken at the Suburban Maryland P&DC
                 located at 16499 Shady Grove Road, Gaithersburg, MD. Picture
                                 taken on September 29, 2010.




                                                  10
Postal Vehicle Service Transportation Routes –                                                       NL-AR-11-001
 Suburban Maryland Processing and Distribution Center



                                 APPENDIX C: MONETARY IMPACT

Excess Workhours and Associated Cost Reductions Findings. We employed a 10-year
cash flow methodology, discounted to present value by applying the following factors
published by Postal Service Headquarters Finance.

                                                        FY 2012             FY 2013             10-Year Total
                              FY 201112 Total
      Cost Category                                     (Annual)            (Annual)            (FYs 2011 to
                               (Phased in)
                                                          Total               Total                 2020)
     Personnel                         $315,472              $616,517          $603,608               $5,421,409
     Fuel                                 29,984               29,760             29,538                 289,967
     Damage Claims                       21,469                21,143            20,823                 200,616
     Total                             $366,925              $667,420          $653,969             $5,911,99213


                                   Rates by Type14                          Factor
                        Discount Rate/Cost of Borrowing                    3.875%
                        Labor Escalation Rate                                1.7%
                        Fuel Cost Escalation Rate                            3.1%
                        Tort Cost Claim Escalation Rate                      2.3%

Cost Reductions for HCRs Finding. To calculate the months remaining in HCR
contracts, we used actual months as of a specified date. If the months remaining were
less than 1 year, we used the number of months in the renewal contract.

                                                                         Annual
              Recommended              Contract        Number                             Estimated
                                                                          Miles
                Reduction              Number          of Trips                           Savings15
                                                                        Reduced
             Postal Initiated            208L2                  2           11,309            $ 78,554
                                         202U1                  1           12,199             108,578
                                         20810                  4           54,916             124,877
             Agreed                      20830                  2             5,455             17,452
                                         208L3                  2           19,942             140,729
                                         208L2                  2           13,335              94,221
             Total                                             13          117,156            $564,411




12
   The FY 2011 figure is conservative to allow for phase-in of workhour reductions during the year.
13
   Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
recommended actions.
14
   Rates published May 7, 2010.
15
   Estimated savings are based on the remaining value of existing contracts and are negotiated between the Postal
Service and their suppliers.


                                                        11
Postal Vehicle Service Transportation Routes –             NL-AR-11-001
 Suburban Maryland Processing and Distribution Center



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                  12
Postal Vehicle Service Transportation Routes –          NL-AR-11-001
 Suburban Maryland Processing and Distribution Center




                                                  13
